<html>
<title> - IMPACT OF SEVERE HURRICANES ON BEAUFORT, SOUTH CAROLINA</title>
<body><pre>[Senate Hearing 109-1146]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1146
 
                      IMPACT OF SEVERE HURRICANES 
                      ON BEAUFORT, SOUTH CAROLINA

=======================================================================

                             FIELD HEARING

                               before the

                        SUBCOMMITTEE ON DISASTER
                       PREVENTION AND PREDICTION

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 17, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
67-625                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e582958aa5869096918d808995cb868a88cb">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           Subcommittee on Disaster Prevention and Prediction

                  JIM DeMINT, South Carolina, Chairman
TED STEVENS, Alaska                  E. BENJAMIN NELSON, Nebraska
GORDON H. SMITH, Oregon              MARIA CANTWELL, Washington
DAVID VITTER, Louisiana              BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 17, 2006..................................     1
Statement of Senator DeMint......................................     1

                               Witnesses

Fowler, Rob, Chief Meteorologist, WCBD, Charleston, SC...........     8
    Prepared statement...........................................     9
Jones, Jr., John E., Deputy Director, National Weather Service, 
  NOAA, DOC......................................................    14
    Prepared statement...........................................    17
Lanham, Colonel Robert W., United States Marine Corps, Commanding 
  Officer, Marine Corps Air Station, Beaufort, SC................     3
    Prepared statement...........................................     6
Winn, Jr., William, Director, Emergency Management Department, 
  Beaufort County, SC............................................    10
    Prepared statement...........................................    13


        IMPACT OF SEVERE HURRICANES ON BEAUFORT, SOUTH CAROLINA

                              ----------                              


                       THURSDAY, AUGUST 17, 2006

                               U.S. Senate,
        Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                      Beaufort, SC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. at 
the Marine Corps Air Station, Hon. Jim DeMint, Chairman of the 
Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Good morning. Anyone who wants a seat, 
please come forward.
    I want to thank everyone for coming out, particularly our 
panel this morning.
    I'm Jim DeMint. I'm your United States Senator. And let me 
just take a minute to talk about the purpose of field hearings.
    What we try to do with field hearings is get a lot of 
information on the record that we can take back and use with 
our colleagues in Washington, with a lot of the staff on the 
Commerce Committee, and particularly my subcommittee, which is 
a new committee, that was actually formed after the tsunamis 
did so much damage a couple of years ago. We realized, as a 
Senate, as a Commerce Committee, that we needed to focus on 
getting prepared for disaster, and to do everything we can to 
prevent the loss of life and the loss of property.
    So this subcommittee is my committee, I'm Chairman of it. 
And so part of my job in the Senate is to help prepare the 
country for disasters, primarily natural disasters--hurricanes, 
earthquakes, tornadoes.
    But we found that there is a big crossover with the 
potential man-made disasters, terrorist attacks--a lot of the 
same warnings, a lot of the same evacuations, are becoming 
critically important.
    So we are working with the Homeland Security Department in 
trying to pull all of this together.
    The hearing today is very important. You'll see that we 
have gotten the first responders here, we have our military, we 
have the weather service, we have the media; and all of these 
have to work together for the preparation, as well as the 
prevention aspects of disaster.
    So, I thank everyone for coming. I particularly want to 
thank the folks here at the Marine Corps Air Station, COL 
Lanham, the base CO and LT COL Ward, who's the base XO, LT COL 
Hamilton, who provided a great briefing this morning on how the 
base is working with the local community and first responders. 
That was very reassuring to see us getting prepared. Captain 
Ken Stiner who organized the whole thing, I thank you very 
much, Captain and Sergeant Major, thank you for allowing us to 
use the base as the facility.
    I found out this morning we are really on Mt. Beaufort, the 
highest point in the county, basically, here at the base, which 
I think is about 32 feet above sea level.
    But in the event of a storm, that's just enough height to 
give us a little safety.
    I also want to thank all the enlisted folks who are here 
today.
    It's a little sobering to think that at the first hearing 
that this committee did once it was formed, Senator David 
Vitter, the Junior Senator from Louisiana, made a presentation 
along with some folks from NOAA, about what would happen if a 
Category 4 or 5 hurricane hit the Gulf area, particularly 
around New Orleans.
    You will see a lot of maps today, about what happens in 
Category 1 or 2 around this part of the country, but we saw 
then the devastation that would happen in New Orleans if you 
got a Category 3 or higher that actually came ashore in New 
Orleans.
    And there was a pretty strong consensus that the levees 
would not hold.
    This has been known, I think, since the seventies. And I 
think there was a kind of an attitude this could never happen 
to us.
    But it is very sobering, that only a few months later, 
after that first hearing with that scenario of what would 
happen, Katrina hit New Orleans. And everything that had been 
predicted happened, just as we talked about it in committee.
    And it was about a year ago, that I was looking out the 
door of a Coast Guard Jayhawk helicopter flying over the coast 
of Mississippi and Louisiana, just looking at the destruction--
seeing the concrete pads where houses used to be for mile after 
mile along the Mississippi coast, and the water still at the 
rooftops in New Orleans.
    It was really devastating, just from a property loss, but 
very heart wrenching just to see what people had worked for, 
for years--gone.
    I want to make sure we do everything we can in South 
Carolina, and other parts of the country, to keep that from 
happening again.
    In order for us to do it, we really have to be prepared.
    There's not a lot we can do about a hurricane and where it 
goes. What we can do, though, is get better and better at 
tracking and predicting where it will hit, learning more and 
more about how to predict the intensity, so we are not caught 
off-guard by a storm that one day appears weak, and the next 
day it gains intensity too quickly for us to do a proper 
evacuation.
    The weather service has gotten better and better at 
tracking, we saw that with Katrina, literally within a few 
miles--more than two days before, we knew pretty much exactly 
where that storm was going to go. So, there was plenty of time 
for evacuation. The intensity in that case was pretty close; 
unfortunately, a lot of the population did not listen to the 
disaster predictions.
    You know there are a number of things that we can look at, 
as far as minimizing the impact after a storm that's coming 
ashore.
    As I mentioned, accurate predictions.
    One of the things we are also trying to avoid is over-
evacuating. What I mean by that is, a storm is offshore, we 
evacuate too soon, we do it too often every time a storm gets 
here, and after a while, people don't pay any attention to you.
    That was part of what was going on in Mississippi. They had 
been warned so many times, and it never really happened. And 
when it actually did, there were too many who had not 
evacuated; but, obviously, we don't want to under-evacuate, 
which means to wait until it's too late.
    Maybe we don't define the area wide enough, so that people 
don't evacuate when you should, and then we have a loss of 
life. That is something we can't tolerate either.
    So, I'm interested in hearing from all of our panelists 
here about what we are going to do as a state, and hopefully 
some of the things we do here we can take to other parts of the 
country, and demonstrate how we can be more effectively 
prepared.
    We have an unusual situation here with the--I don't know 
that it's that unusual--a lot of bases around coastal areas, 
but having the Marine Corps here working with the folks in 
Beaufort, should give us some extra rescue capability, as well 
as just rebuilding once a storm hits.
    So, I want to start with COL Lanham, to get his opening 
statement.
    We have asked him to keep it to around five minutes.
    But since I'm the only one here, if you have got something 
to say that takes a little longer, I think we can be 
accommodating to that. And then we will just work our way down 
our panel, and I'll just introduce each of you as we get to 
you.
    So Colonel, if you will kick us off this morning.

  STATEMENT OF COLONEL ROBERT W. LANHAM, UNITED STATES MARINE 
CORPS, COMMANDING OFFICER, MARINE CORPS AIR STATION, BEAUFORT, 
                               SC

    Colonel Lanham. Sure will, sir.
    Senator DeMint, I would like to thank you for this 
opportunity to discuss the preparedness efforts of the civil 
and military communities here in the Lowcountry, and for your 
support of these efforts. I would also like to express the 
appreciation of both uniformed and civilian Marines, Sailors 
and military families here in Beaufort County for all that you 
have done to support our efforts here and around the world.
    These are indeed challenging times. We face enemies abroad 
that have little regard for the ideals we Americans hold 
dearly. On the home front, we must also remain prepared for the 
unique challenges that nature can steer our way.
    Just as shared awareness, cooperating and training with 
international partners can open doors and new opportunities for 
progress in the war against extremism, so we can foster long-
term relationships and a spirit of cooperation here in the 
Lowcountry to meet the challenges at home. It is this spirit of 
cooperation that I would like to focus on today.
    MCAS Beaufort's field elevation is 37,--among the highest 
elevations in Beaufort County. The Air Station is located right 
along the northern county's main storm recovery route, Highway 
21.
    The last large-scale evacuation occurred just prior to 
Hurricane Floyd in September 1999. During that evacuation, long 
traffic delays were one of the primary challenges, as there are 
only a few routes and bridges off of the islands making up most 
of the county. This geographical fact complicates execution of 
our plans and timing of critical decisions.
    MCAS Beaufort has taken a pro-active and cooperative 
position with regard to prior planning, evacuation coordination 
and recovery efforts within the Tri-Command--our three military 
bases including the Air Station, Parris Island Recruit Depot, 
and the Beaufort Naval Hospital--as well as with our local and 
state governmental partners.
    Additionally, we are currently completing formal agreements 
to allow life flight evacuations of Beaufort Memorial Hospital 
patients from the Air Station.
    In conjunction with city and county agencies, and our Tri-
Command partners, detailed planning and pre-hurricane season 
exercises are conducted annually. These efforts ensure 
hurricane preparedness through inspections of our facilities 
and base housing, hurricane supply lockers, emergency meal 
rations, security, and evacuation procedures. All tenant units, 
commands and sections aboard the Air Station provide 
Destructive Weather representatives to the Operations 
Department, and directly participate in the annual training 
exercise. We utilize five hurricane conditions of readiness, 
based upon hurricane strength and proximity to our 
installations. Each condition has immediate action guidelines/
steps to be accomplished once the condition is set. Hurricane 
Condition-5 HC-5 is a seasonal condition set from 1 June to 30 
November. HC-4 is set 72 hours prior to the expected storm 
landfall in the local area. HC-3 is set 48 hours; HC-2, 24 
hours, and HC-1, 12 hours prior to landfall.
    This system provides for a comprehensive notification 
process of the potential impact of a hurricane to all 
personnel. All hands receive annual hurricane briefs, and are 
provided preparedness handouts that specifically address 
conditions of readiness, appropriate evacuation procedures, and 
recommended personal evacuation supplies/kits.
    We also take care to push all available information to our 
military families through the base newspapers, e-mail 
notifications, Internet websites, handouts, and ``town 
meetings.''
    In the event of an actual hurricane, time-critical 
information is distributed to all commands via multiple 
sources: e-mail, automated call-down phone notification, Public 
Affairs Office marquees, and our military television channel.
    The resident Marine Aircraft Group and one Navy squadron 
fly all operating aircraft to either Texas or Ohio. Any 
remaining aircraft are placed in available hangars.
    There is an agreement in place to allow the county to 
preposition vehicles aboard the air station during an 
evacuation.
    These vehicles would be utilized in direct support to the 
recovery effort in the aftermath of a significant event.
    Military personnel, their families and the air station 
civilian staff/workforce are expected to self-evacuate. At the 
Commanding Officer's direction, a minimal cadre of essential 
personnel is designated to remain at the air station.
    Should the intensity of the storm require the Beaufort 
County government to evacuate, the Air Station has an agreement 
to send upwards of 200 personnel to their fall-back site 
located at the Allendale-Fairfax High School to ride out the 
storm.
    In advance of the storm's landfall, we plan to pre-position 
generators, water trailers, heavy equipment, and vehicles on 
the relative high ground of our flight-line, so it will remain 
accessible and reasonably free of trees, power lines, and 
potential storm surge flood waters.
    MCAS Beaufort coordinates directly with the Beaufort County 
Emergency Management Division. They allow us direct 
representation in their downtown emergency Operations Center to 
assist in disseminating time-critical storm information and 
coordinating our efforts.
    Additionally, along with the other town managers and mayors 
from within the county, we are invited to call in and 
participate on the county's conference calls with the 
Governor's office to discuss courses of action and potential 
timelines for mandatory evacuation orders.
    We have established communications connectivity through a 
dedicated fiberoptic line from our EOC to the county's traffic 
control fiber network, which is also linked directly to the 
Beaufort County EOC.
    We have two computers in the EOC that are directly linked 
to the Beaufort County network. This allows for MCAS personnel 
to access Web-EOC, ThinkMap Geographic Information Systems 
(GIS) (provides updated county aerial photos, including flood 
data projection overlays) and access to all 37 county traffic 
control cameras.
    In this way, emergency planners and decisionmakers are all 
on the same page, provided the same information, and are using 
the same software to assist in more effective and coordinated 
decisionmaking.
    Direct-line telephone connections run between the Air 
Station, Parris Island, Beaufort Naval Hospital, and the 
Beaufort County EOC. Additionally, Beaufort County programs all 
of our 800 MHz radios. Currently, we have 36 of these on hand: 
27 hand-helds, five vehicle-mounted and four base-stations.
    This capability allows for interoperable and mutual support 
during evacuation and recovery, and provides for an alternate 
means of communication between the EOCs.
    Once the storm passes, these same communications links and 
planning and decision tools will facilitate execution of 
coordinated recovery plans, beginning with whatever is required 
to respond to the situation as it develops.
    Clearing highways, making early assessments, and 
establishing power, communication, and access for safety and 
security personnel will likely be early priorities.
    No one can predict the precise effects of strong storms and 
what they will leave in their wake, but here in the Lowcountry, 
we are trying to imagine and prepare for numerous 
contingencies.
    Our planning efforts have been consciously tied together, 
our infrastructure put into place with mutual support and 
coordination in mind, and our recovery planning and execution 
have been designed to succeed as much as our resources will 
possibly allow. We cannot guarantee success, but we are 
confident that we can make sound decisions and enhance the 
safety and security of our people.
    Again, Senator, thank you for your time and support, and 
for allowing us to participate in this hearing today.
    [The prepared statement of Colonel Lanham follows:]

 Prepared Statement of Colonel Robert W. Lanham, United States Marine 
   Corps, Commanding Officer, Marine Corps Air Station, Beaufort, SC

    Senator DeMint, I would like to thank you for this opportunity to 
discuss the preparedness efforts of the civil and military communities 
here in the Lowcountry and for your support of these efforts. I would 
also like to express the appreciation of both uniformed and civilian 
Marines, Sailors, and military families here in Beaufort County for all 
that you have done to support our efforts here and around the world.
    These are indeed challenging times. We face enemies abroad that 
have little regard for the ideals we Americans hold dearly. On the home 
front, we must also remain prepared for the unique challenges that 
nature can steer our way.
    Just as shared awareness, cooperating and training with 
international partners can open doors and new opportunities for 
progress in the war against extremism, so we can foster long-term 
relationships, and a spirit of cooperation, here in the Lowcountry to 
meet the challenges at home. It is this spirit of cooperation that I 
would like to focus on today.
    MCAS Beaufort's field elevation is 37,--among the highest 
elevations in Beaufort County. The Air Station is located right along 
the northern county's main storm recovery route, Highway 21.
    The last large-scale evacuation occurred just prior to Hurricane 
Floyd in September 1999. During that evacuation, long traffic delays 
were one of the primary challenges, as there are only a few routes and 
bridges off of the islands making up most of the county. This 
geographical fact complicates execution of our plans and timing of 
critical decisions.
    MCAS Beaufort has taken a pro-active and cooperative position with 
regard to prior planning, evacuation coordination, and recovery efforts 
within the Tri-Command--our three military bases including the Air 
Station, Parris Island Recruit Depot, and the Beaufort Naval Hospital--
as well as with our local and state governmental partners. 
Additionally, we are currently completing formal agreements to allow 
life flight evacuations of Beaufort Memorial Hospital patients from the 
air station.

Planning
    In conjunction with city and county agencies, and our Tri-Command 
partners, detailed planning and pre-hurricane season exercises are 
conducted annually. These efforts ensure hurricane preparedness through 
inspections of our facilities and base housing, hurricane supply 
lockers, emergency meal rations, security, and evacuation procedures. 
All tenant units, commands, and sections aboard the air station provide 
Destructive Weather representatives to the Operations Department and 
directly participate in the annual training exercise. We utilize five 
hurricane conditions of readiness, based upon hurricane strength and 
proximity to our installations. Each condition has immediate action 
guidelines/steps to be accomplished once the condition is set. 
Hurricane Condition-5 (HC-5) is a seasonal condition set from 1 June to 
30 November. HC-4 is set 72 hours prior to the expected storm landfall 
in the local area. HC-3 is set 48 hours; HC-2, 24 hours, and HC-1, 12 
hours prior to landfall.
    This system provides for a comprehensive notification process of 
the potential impact of a hurricane to all personnel. All hands receive 
annual hurricane briefs and are provided preparedness handouts that 
specifically address conditions of readiness, appropriate evacuation 
procedures, and recommended personal evacuation supplies/kits. We also 
take care to push all available information to our military families 
through the base newspapers, e-mail notifications, Internet websites, 
handouts and, ``town meetings.''
    In the event of an actual hurricane, time-critical information is 
distributed to all commands via multiple sources: e-mail, automated 
call-down phone notification, Public Affairs Office marquees and our 
military television channel. The resident Marine Aircraft Group and one 
Navy squadron fly all operating aircraft to either Texas or Ohio. Any 
remaining aircraft are placed in available hangars. There is an 
agreement in place to allow the County to preposition vehicles aboard 
the air station during an evacuation. These vehicles would be utilized 
in direct support to the recovery effort in the aftermath of a 
significant event.
    Military personnel, their families and the air station civilian 
staff/workforce are expected to self-evacuate. At the Commanding 
Officer's direction, a minimal cadre of essential personnel is 
designated to remain at the air station. Should the intensity of the 
storm require the Beaufort County government to evacuate, The Air 
Station has an agreement to send upwards of 200 personnel to their 
fall-back site located at the Allendale-Fairfax High School to ride out 
the storm.
    In advance of the storm's landfall, we plan to pre-position 
generators, water trailers, heavy equipment and vehicles on the 
relative high ground of our flight-line so it will remain accessible 
and reasonably free of trees, power lines and potential storm surge 
flood waters.
    Air Station personnel are organized into emergency support teams 
including Emergency Operations Center (EOC) staff, weather service 
personnel, shelter management teams, communications support teams, 
electrical repair teams, heavy equipment operators, medical and 
emergency support teams, and Military Policy security teams.

Coordination
    MCAS Beaufort coordinates directly with the Beaufort County 
Emergency Management Division. They allow us direct representation in 
their downtown Emergency Operations Center to assist in disseminating 
time critical storm information and coordinating our efforts. 
Additionally, along with the other town managers and mayors from within 
the county, we are invited to call-in and participate on the county's 
conference calls with the Governor's office to discuss courses of 
action and potential time-lines for mandatory evacuation orders.
    We have established communications connectivity through a dedicated 
fiberoptic line from our EOC to the county's traffic control fiber 
network, which is also linked directly to the Beaufort County EOC.
    We have two computers in the EOC that are directly linked to the 
Beaufort County network. This allows for MCAS personnel to access Web-
EOC, ThinkMap Geographic Information Systems (GIS) (provides updated 
county aerial photos, including flood data projection overlays), and 
access to all 37 county traffic control cameras. In this way, emergency 
planners and decisionmakers are all on the same page, provided the same 
information, and are using the same software to assist in more 
effective and coordinated decisionmaking.
    Direct-line telephone connections run between the Air Station, 
Parris Island, Beaufort Naval Hospital, and the Beaufort County EOC. 
Additionally, Beaufort County programs all of our 800 MHz radios. 
Currently, we have (36) of these on hand: 27 hand-helds, 5 vehicle-
mounted and 4 base-stations. This capability allows for interoperable 
and mutual support during evacuation and recovery, and provides for an 
alternate means of communication between the EOCs.

Recovery
    Once the storm passes, these same communications links and planning 
and decision tools will facilitate execution of coordinated recovery 
plans, beginning with whatever is required to respond to the situation 
as it develops. Clearing highways, making early assessments, and 
establishing power, communication, and access for safety and security 
personnel will likely be early priorities.
    No one can predict the precise effects of strong storms and what 
they will leave in their wake, but here in the Lowcountry, we are 
trying to imagine and prepare for numerous contingencies. Our planning 
efforts have been consciously tied together, our infrastructure put 
into place with mutual support and coordination in mind, and our 
recovery planning and execution have been designed to succeed as much 
as our resources will possibly allow. We cannot guarantee success, but 
we are confident that we can make sound decisions and enhance the 
safety and security of our people.
    Again, Senator, thank you for your time and support, and for 
allowing us to participate in this hearing today.

    Senator DeMint. Thank you, Colonel. And before I introduce 
Mr. Fowler, Senator Inouye is the Ranking Member on the 
Commerce Committee. And one of his top staffers, Helen Colosimo 
is here. Helen, if you will just raise your hand, so folks will 
know you are here. I appreciate you coming to listen in.
    Rob Fowler is the Chief Meteorologist for WCBD in 
Charleston, and has guided large part of South Carolina through 
a number of storms.
    Rob, the media is critical in getting peoples' attention. 
In fact, we in the government, NOAA, can do very little unless 
folks believe you when you tell them.
    So, we appreciate what you have done in the past, and your 
willingness to participate as part of this team to get South 
Carolina ready.
    Mr. Fowler.

STATEMENT OF ROB FOWLER, CHIEF METEOROLOGIST, WCBD, CHARLESTON, 
                               SC

    Mr. Fowler. Thank you, Senator. This is an honor to talk to 
you. I usually talk to second graders.
    Senator DeMint. That's about the reading level here in the 
Senate.
    Mr. Fowler. I'll keep it all the same.
    It is hard to believe it has been almost 17 years since 
Hurricane Hugo hit the South Carolina coast. A lot has happened 
since that time, and during that time, no other major hurricane 
has made landfall along our beautiful beaches.
    It pains me to think about these days before, during, and 
especially after the storm.
    I came to Channel 2 in Charleston in 1987 from Green Bay, 
Wisconsin.
    I told my wife we were going on a long honeymoon in a 
beautiful coastal city.
    Little did I know at the time, the honeymoon would only 
last two years, and our lives were about to be turned upside 
down.
    As a broadcast meteorologist, Hurricane Hugo was a lesson 
you would never learn in a college classroom.
    Because of that, it has been my responsibility to report, 
to the best of my ability, the potential tropical dangers, from 
the coast of Africa, to the Bahamas, to the Gulf of Mexico, and 
everywhere else in between.
    I remember Tropical Storm Gaston. It looked like a 
hurricane, did damage like a hurricane, but was only upgraded 
to a hurricane later in the season, in November.
    It showed people that it doesn't take much to get your 
attention, and a slow-moving category one hurricane can do 
quite a bit of damage. It doesn't always have to be the monster 
storm for us to stand up and take notice.
    We are blessed in this community in that we have many 
people who have been through hurricanes before. They know what 
to expect. We rely on their expertise and experiences to spread 
the word to others.
    The problem is, there are many more ``others'' than ever 
before.
    More and more people are moving to the coast, putting more 
people at risk when a hurricane threatens.
    Along the South Carolina coast, we know it is not a matter 
of ``if'' but a matter of ``when.''
    That is why we have formulated a very close relationship 
with the National Weather Service in Charleston.
    We know we are going to need their help in the future, and 
we know we, the media, will be needed, as well.
    We have worked together closely for a long time, in fact.
    I spent the night at the National Weather Service office in 
Charleston the night Hurricane Hugo hit.
    When the roof sounded like it was about to be pulled off in 
the middle of the night, you have never seen 13 meteorologists 
move faster than we did heading to the bathroom, which was the 
designated safe-room at that facility.
    The last two years for us have been very stressful, and it 
has prompted all of us to ramp-up our hurricane speeches and 
presentations.
    I don't think there is one person in our viewing area who 
at one time or another looked at Florida in 2004, and the Gulf 
Coast in 2005, and said: ``That could be me.''
    That is why we have tried to get out to as many community 
groups, civic organizations, senior citizen complexes, 
churches, hospitals, and schools and get the word out: Get 
ready now. Don't wait until the storm is here. Know what you 
are going to do, and get your kit ready, just in case.
    To the kids out there, make sure you tell your parents to 
have a plan on when and where you are going to evacuate.
    Parents, make sure your kids understand what is happening. 
Let them be a part of the decisionmaking process. Teach them 
what they need to know and do.
    In closing, we know we are in a very active tropical 
cyclone pattern. Is it global warming or just the natural, 
cyclical way the earth and its atmosphere changes? Whatever the 
reason, we need to remember that we have chosen to live along 
this beautiful coast for a special reason.
    Unfortunately, there is a risk involved. And all of us need 
to understand and accept that risk, so that when the next one 
comes, we will be ready, willing, and able to either stay and 
protect ourselves and our family, or leave.
    The choice is yours. The decision is yours. My job is to 
make sure you have all the necessary facts to make that 
decision.
    [The prepared statement of Mr. Fowler follows:]

        Prepared Statement of Rob Fowler, Chief Meteorologist, 
                          WCBD, Charleston, SC

    It is hard to believe it has been almost 17 years since Hurricane 
Hugo hit the South Carolina coast.
    A lot has happened since that time, and during that time, no other 
major hurricane has made landfall along our beautiful beaches. It pains 
me to think about those days before, during, and especially after the 
storm. I came to Channel 2 in Charleston, in 1987, from Green Bay, 
Wisconsin. I told my wife we were going on a long honeymoon in a 
beautiful coastal city.
    Little did I know at the time the honeymoon would only last 2 
years, and our lives were about to be turned upside down.
    As a broadcast meteorologist, Hurricane Hugo was a lesson you could 
never learn in a college classroom.
    Because of that, it has been my responsibility to report, to the 
best of my ability, the potential tropical dangers, from the coast of 
Africa, to the Bahamas, and to the Gulf of Mexico, and everywhere else 
in between.
    I remember Tropical Storm Gaston forming off of our coast 2 years 
ago. Yes, at the time, it was Tropical Storm Gaston. It looked like a 
hurricane, did damage like a hurricane, but was only upgraded to a 
hurricane later in the season, in November. It showed people that it 
doesn't take much to get your attention, and a slow moving Category 1 
hurricane can do quite a bit of damage. It doesn't always have to be 
the monster storm for us to stand up and take notice.
    We are blessed in this community in that we have many people who 
have been through hurricanes before.
    They know what to expect. We rely on their expertise and 
experiences to spread the word to others.
    The problem is, there are many more ``others'' than ever before. 
More and more people are moving to the coast, putting more people at 
risk when a hurricane threatens. Along the South Carolina coast, we 
know it is not a matter of ``if,'' but a matter of ``when.''
    That is why we have formulated a very close relationship with the 
National Weather Service in Charleston. We know we are going to need 
their help in future, and we know we, the media, will be needed as 
well. We have worked together closely for a long time; in fact, I spent 
the night at the National Weather Service office in Charleston the 
night Hurricane Hugo hit. When the roof sounded like it was about to be 
pulled off in the middle of the night, you have never seen 13 
meteorologists move faster than we did heading to the bathroom, which 
was the designated ``safe room'' at that facility. The last two years 
for us have been very stressful, and it has prompted all of us to ramp-
up our hurricane speeches and presentations. I don't think there is one 
person in our viewing area who, at one time or another, looked at 
Florida in 2004 and the Gulf Coast in 2005, and said ``that could be 
me.'' That is why we have tried to get out to as many community groups, 
civic organizations, senior citizen complexes, churches, hospitals, and 
schools and get the word out. GET READY NOW! Don't wait until the storm 
is here. Know what you are going to do, and get your kit ready, just in 
case. To the kids out there, make sure you tell your parents to have a 
plan on when and where you are going to evacuate. Parents, make sure 
your kids understand what is happening. Let them be a part of the 
decisionmaking process. Teach them what they need to know and do.
     In closing, we know we are in a very active tropical cyclone 
pattern. Is it global warming, or just the natural, cyclical way the 
Earth and its atmosphere changes.
    Whatever the reason, we need to remember that we have chosen to 
live along this beautiful coast for a special reason. Unfortunately, 
there is a risk involved, and all of us need to understand and accept 
that risk, so when the next one comes, we will be ready, willing, and 
able, to either stay and protect ourselves and our family, or leave. 
The choice is yours. The decision is yours. My job is to make sure you 
have all of the necessary facts to make that decision.

    Senator DeMint. Thank you, Mr. Fowler.
    One of the things we learned from Hurricane Katrina is that 
the Federal Government is not going to be there the next 
morning to take care of everything.
    A lot of folks have blamed FEMA. Certainly, we had a lot of 
problems and still are having them.
    So we are leaving a lot there. The whole purpose of FEMA is 
to come in two, three, four days after a disaster and support 
First Responders and local emergency folks.
    We have done that well in the past in South Carolina. We 
know it's our responsibility. William Winn is the Director of 
the Beaufort County Department of Emergency Management.
    It's his job to coordinate our preparation and to have a 
plan in place.
    I am encouraged by what I have heard about how you are 
working with the base and others.
    Mr. Winn, we are looking forward to your testimony.

STATEMENT OF WILLIAM WINN, JR., DIRECTOR, EMERGENCY MANAGEMENT 
                DEPARTMENT, BEAUFORT COUNTY, SC

    Mr. Winn. Thank you, sir.
    Senator DeMint, it is a pleasure today to address you, and 
the Senate Subcommittee on the preparedness issues facing 
Beaufort County.
    As the Director of Emergency Management for Beaufort 
County, I have had the experience of evacuating this county on 
five different occasions. As the only county in South Carolina 
that requires an entire evacuation to include all levels of 
government, we face a substantial challenge to develop and 
maintain the level of readiness necessary to accomplish that 
mission.
    Beaufort County and the State of South Carolina, in its 
commitment to residents and visitors have developed an in-depth 
evacuation plan. In cooperating with our state partners, we 
believe that we have the ability to fully implement that plan, 
and successfully evacuate those residents who want to leave.
    Much of our ability to successfully evacuate depends upon 
accurate and timely weather information that is presented to us 
in a format that is convincing to the public of the necessity 
to leave.
    The Charleston National Weather Service Office, who 
provides our local information, has in the past, and we feel 
confident in the future, being able to provide these services.
    As good as the people are in the Charleston National 
Weather Service Office, they can be no better than the forecast 
given to them by the National Hurricane Center.
    In the past, and even today, we have continually seen 
improvements in their forecast.
    This rate of improvement cannot end. Adequate funding, 
training, and applying knowledge learned must be maintained on 
a level necessary to keep evacuation plans current and 
effective.
    Out-of-date and unrealistic replacement times for hurricane 
evacuation studies must end.
    Let me encourage you to revitalize a successful plan to 
update the South Carolina Hurricane Evacuation Study, as well 
as those in other areas.
    But equally important is to ensure that the National 
Hurricane Center and the Local Emergency Performance Grants 
Program be fully funded, to allow continued improvements in 
hurricane forecasting and provide qualified Emergency Managers 
for local communities.
    This year, Beaufort County developed two new systems to 
better serve our residents before and during evacuations.
    First, we purchased and installed a telephone emergency 
alert system to allow us to direct call all our residents to 
ensure they are aware of evacuation and storm threat;
    Second, we have purchased a toll-free number for all 
residents to use to contact Beaufort County for reentry and 
situation reports affecting the county reentry and recovery. 
This will allow our citizens to determine the situation they 
will be facing as they return to their homes and jobs.
    Beaufort County has also invested in a second toll-free 
number for government employees to call for storm reentry. All 
municipalities, state, and Federal agencies in Beaufort County 
participate in this program.
    We have established a reentry pass system that allows us to 
bring specific government and private groups quickly back into 
the county to clear highways and establish medical facilities.
    As an educational effort, Beaufort County and the Town of 
Hilton Head Island have developed two hurricane preparedness 
brochures for distribution to the public.
    These are basic instructions along with our toll-free 
number. The second brochure is simply twenty questions to ask 
your insurance company.
    As of today, we have distributed over 30,000 of these 
brochures.
    To ensure adequate communications, Beaufort County has 
purchased and installed three satellite communications systems, 
and a fourth was just funded.
    With a major storm such as a CAT 4 or 5, we have developed 
continuity of government planning to allow us to move our 
command and control facilities out of the county.
    This coming year, we have allocated funds to construct a 
back-up facility in another county to ensure back-up capacities 
for our computer systems.
    Beaufort County has created a Hurricane Recovery Task force 
to develop a long-term recovery plan.
    The Town of Hilton Head Island has completed its base 
recovery plan and is now developing implementation guidelines.
    And lastly, we have established a county-wide fiber network 
to interconnect all of our command and control facilities along 
with municipalities, Federal, and state agencies.
    This network allows over 300 users quick and effective 
communications with our EOC, and to share information quickly.
    Beaufort County is very fortunate in experiencing a strong 
working relationship with the MCAS, MCRD, and Beaufort Naval 
Hospital.
    Through a dedicated effort, we have achieved successful 
integration of emergency operations with all three bases.
    Interoperability of radio communication has been achieved.
    With all of the improvements to our plans, there remains a 
critical issue that provides a growing threat to our successful 
evacuation.
    That threat is the lack of sufficient highway 
infrastructure to carry the evacuation traffic.
    Unless we see the immediate planning and construction of a 
four-lane, multi-use highway out of the South Carolina 
Lowcountry into the Aiken/Augusta area, our future ability to 
evacuate is in jeopardy.
    My emphasis to you today is preparedness and partnerships. 
Only through cooperation on the local, state and Federal level 
have we, and will we be able to educate the public and convince 
them of the need for personal preparedness.
    Thank you for your time today, and it has been an honor for 
me to have this opportunity.
    [The prepared statement of Mr. Winn follows:]

          Prepared Statement of William Winn, Jr., Director, 
          Emergency Management Department, Beaufort County, SC

    Senator DeMint, it is a pleasure today to address you, and Senate 
Subcommittee, on the preparedness issues facing Beaufort County. As the 
Director of Emergency Management for Beaufort County, I have had the 
experience of evacuating this county on five different occasions. As 
the only county in South Carolina that requires an entire evacuation to 
include all levels of government, we face a substantial challenge to 
develop and maintain the level of readiness necessary to accomplish 
that mission.
    Beaufort County and the State of South Carolina, in its commitment 
to residents and visitors have developed an in-depth evacuation plan. 
In cooperation with our state partners, we believe that we have the 
ability to fully implement that plan and successfully evacuate those 
residents who want to leave.
    Much of our ability to successfully evacuate depends upon accurate 
and timely weather information that is presented to us in a format that 
is convincing to the public of the necessity to leave. The Charleston 
National Weather Service Office, who provides our local information, 
has in the past, and we feel confident in the future being able to 
provide these services.
    As good as the people are in the Charleston National Weather 
Service Office, they can be no better than the forecast given to them 
by the National Hurricane Center. In the past, and even today, we have 
continually seen improvements in their forecast. This rate of 
improvement cannot end. Adequate funding, training and applying 
knowledge learned must be maintained on a level necessary to keep 
evacuation plans current and effective. Out-of-date and unrealistic 
replacement times for hurricane evacuation studies must end. Let me 
encourage you to revitalize a successful plan to update the South 
Carolina Hurricane Evacuation Study as well as those in other areas.
    But equally important is to ensure that the National Hurricane 
Center and the Local Emergency Performance Grants Program be fully 
funded, to allow continued improvements in hurricane forecasting, and 
provide qualified Emergency Managers for local communities.
    This year Beaufort County developed two new systems to better serve 
our residents before and during evacuations. First, we purchased and 
installed a telephone emergency alert system to allow us to direct-call 
all our residents to ensure they are aware of evacuation and the storm 
threat.
    Second, we have purchased a toll free number for all residents to 
use to contact Beaufort County for re-entry, and situation reports 
affecting the county reentry and recovery. This will allow our citizens 
to determine the situation they will be facing as they return to their 
homes and jobs.
    Beaufort County has also invested in a second toll free number for 
government employees to call for storm re-entry. All municipalities, 
state, and Federal agencies in Beaufort County participate in this 
program.
    We have established a reentry pass system that allows us to bring 
specific government and private groups quickly back into the county to 
clear highways and establish medical facilities.
    As an educational effort Beaufort County, and the Town of Hilton 
Head Island, have developed two hurricane preparedness brochures for 
distribution to the public. These are basic instructions along with our 
toll free numbers. The second brochure is a simple twenty questions to 
ask your insurance company. As of today we have distributed over 30,000 
of these brochures.
    To ensure adequate communications, Beaufort County has purchased 
and installed three satellite communications systems, and a fourth was 
just funded.
    With a major storm such as a CAT 4 or 5, we have developed 
continuity of government planning to allow us to move our command and 
control facilities out of the county. This coming year we have 
allocated funds to construct a back-up facility in another county to 
ensure back-up capacities for our computer systems.
    Beaufort County has created a Hurricane Recovery Task Force to 
develop a long-term recovery plan. The Town of Hilton Head Island has 
completed its base recovery plan and is now developing implementation 
guidelines.
    And lastly, we have established a county-wide fiber network to 
interconnect all of our command and control facilities along with 
municipalities, Federal and state agencies. This network allows over 
300 users quick and effective communications with our EOC and to share 
information quickly.
    Beaufort County is very fortunate in experiencing a strong working 
relationship with the MCAS, MCRD, and Beaufort Naval Hospital. Through 
a dedicated effort we have achieved successful integration of emergency 
operations with all three bases. Interoperability of radios 
communications has been achieved.
    With all of the improvements to our plans, there remains a critical 
issue that provides a growing threat to our successful evacuation. That 
threat is the lack of sufficient highway infrastructure to carry the 
evacuation traffic. Unless we see the immediate planning and 
construction of a four lane multi-use highway out of the South Carolina 
Lowcountry into the Aiken/Augusta area, our future ability to evacuate 
is in jeopardy.
    My emphasis to you today is preparedness and partnerships. Only 
through cooperation of the local, state, and Federal level have we, and 
will we be able to educate the public and convince them of the need for 
personal preparedness.
    Thank you for your time today, and it has been an honor for me to 
have this opportunity.

    Senator DeMint. Thank you, Mr. Winn. Perhaps some questions 
in a minute, but I want to introduce Mr. John Jones, who is a 
Deputy Director of the National Weather Service.
    Mr. Jones, we very much appreciate you being here today, 
and looking forward to your presentation.

  STATEMENT OF JOHN E. JONES, JR., DEPUTY DIRECTOR, NATIONAL 
                   WEATHER SERVICE, NOAA, DOC

    Mr. Jones. Thank you, Senator. Thank you for inviting me 
here today to join you and the illustrative panel----
    Senator DeMint. Pull the microphone a little----
    Mr. Jones.--to join you and the illustrative panel you have 
gathered here.
    I would like to spend a few minutes talking about the 
outlook for the remainder of the 2006 hurricane season, threats 
posed to South Carolina by hurricanes and tropical systems, and 
the roles and services of the National Weather Service.
    We appreciate the support this committee has given to NOAA, 
which enables us to provide weather, water, and climate 
forecasts, to the American people.
    Last year's hurricane season set records for the number of 
hurricanes and tropical storms.
    However, whether we are predicting an above-average 
hurricane season, like last year, or below-average hurricane 
season, the message is the same, you have already heard it from 
everyone here on this panel: Prepare. Prepare. Prepare.
    It takes only one powerful hurricane like Katrina last 
year, or Andrew in 1992, or Hugo in 1989, to expose our 
vulnerabilities.
    The official hurricane season began June 1 and runs through 
November 30. The average peak of activity occurs with the 
warmest water temperatures, which is right now, the middle of 
August, through the end of October.
    On August 8, NOAA revised, slightly downward, its 
prediction of tropical systems for the 2006 Atlantic hurricane 
season.
    NOAA is now predicting a total of 12-15 tropical storms, 
with seven to nine becoming hurricanes.
    Of those, we predict three to four will be major 
hurricanes, what we call category three or higher, pacing winds 
over 110 miles per hour. These category three storms are the 
ones likely to cause the most extensive damage. So far this 
year, there have been three tropical storms, none of which 
became a hurricane.
    Our seasonal forecast comes from many favorable conditions, 
including warmer sea surface temperatures in the Atlantic 
Basin, combined with low wind shear, lower surface pressures 
and an African easterly jet stream.
    Many believe these favorable conditions, which came 
together around 1995, are part of a multi-decadal climate 
pattern that last peaked in the 1950s and 1960s.
    This pattern could keep us in an active period for major 
hurricanes for another 10 to 20 years or more.
    One question often raised is the role that climate change 
plays in hurricane frequency and intensity.
    NOAA research suggests both natural- and human-induced 
climate change may impact hurricane frequency and/or intensity.
    However, our science is not mature enough to determine what 
percentage of human-induced climate change and what percentage 
of natural climate variability impacts hurricane frequency and 
intensity.
    In addition, our current state of science cannot attribute 
global warming to a particular storm or particular season.
    Our meteorologists and research scientists are actively 
engaged in ongoing research to better understand how climate 
variability and change may affect hurricanes.
    It takes only one hurricane to hit a community to make for 
a bad year.
    Just recall Hugo, which hit South Carolina in 1989. Its 
center made landfall just north of Charleston with a large 
storm surge up to 20 feet high.
    The impacts of Hurricane Hugo also reached well inland.
    Heavy rain and strong winds devastated many portion of 
North and South Carolina, knocking down trees and disrupting 
power supplies for over a month in some areas.
    Hurricane Katrina is a grim reminder that the greatest 
potential for large loss of life is from the storm surge.
    Storm surge is very difficult to predict, because it 
depends on the exact hurricane track and wind field.
    It is also affected by the slope of the ocean floor, 
topography, and natural and man-made barriers, such as dunes 
and roadways.
    A slight difference in track or wind field can mean a huge 
difference in where the highest storm surge impacts the coast.
    NOAA's Storm Surge Model, known as SLOSH, is used by 
emergency managers in their evacuation planning, and provided 
excellent guidance during last year's hurricanes.
    Let's look at the potential storm surge from a hurricane 
making landfall near Beaufort, South Carolina.
    The model we are showing on the screen depicts the storm 
surge from a category one hurricane moving to the north-
northwest at 35 miles per hour.
    The storm surge reaches about six feet high along the 
coast, and the high tide could increase the total water level 
by five feet.
    This means the water level in Beaufort could be as high as 
about 11 feet.
    Now we're looking at a projection of a storm surge from a 
category five hurricane. Notice how much farther inland the 
storm surge flooding penetrates. A landfalling category five 
hurricane could cause a surge of water almost 20 feet high, 
devastating everything in its path. A high tide could increase 
this even more, and the water could be over 25 feet keep in 
downtown Beaufort.
    The Queen of the Carolina Sea Islands could be inundated, 
and its tabby ruins, historic forts, elegant homes, and 
majestic plantations damaged or destroyed.
    Not only is the mission of the National Weather Service to 
forecast the potential hurricane surge threats you just saw, 
but we also forecast the inland threats from these storms.
    The National Hurricane Center, or NHC, has been the 
centerpiece of our Nation's hurricane forecast and warning 
program for 50 years.
    NHC is responsible for predicting the path and intensity of 
the system, issuing coastal hurricane watches and warnings, and 
describing broad effects to the areas impacted, including 
projected storm surge levels.
    Local National Weather Service Forecast Offices, or WFOs, 
also play a critical role in this process.
    WFOs use their local expertise to refine NHC advisories and 
provide specific, detailed information about the impacts from 
the hurricane to their local forecast area of responsibility.
    WFOs issue inland hurricane and tropical storm warnings, 
describe the local impacts from the storms, and provide 
forecasts and warnings for all inland effects, including 
floods, flash floods, strong wind, and tornadoes.
    The offices work closely with local emergency managers to 
ensure they are aware of the potential affects from the storms.
    Local media relay National Weather Service watch and 
warning information to the public, providing a critical way to 
disseminate potential life-saving information.
    Improving hurricane forecasting is a top priority for the 
Administration. NOAA has made great strides in improving 
hurricane track forecasting; our five-day forecasts are now as 
accurate as our three to four day forecasts were 15 years ago.
    NOAA continues to improve our hurricane track and intensity 
forecasting through better observations and modeling efforts.
    One of the tools we use to make observations in and near 
hurricanes is reconnaissance aircraft.
    The Gulf Stream IV, which we have here today, is equipped 
to obtain data from the environment surrounding the hurricane.
    This information is fed into our computer models, which 
then provide forecast guidance to assist NHC forecasters with 
predicting hurricane track and intensity.
    Where will the next hurricane hit? Could it be the Gulf 
Coast again? Maybe.
    How about New England? Or New York City? It's possible.
    What about South Carolina?
    The truth is, no one knows exactly what areas of the coast, 
or which states, if any, a hurricane may hit in 2006.
    We must remember a hurricane is not just a coastal event. 
Storm surges, strong winds, heavy rains, and tornadoes from a 
hurricane or weakening tropical system can spread well inland 
and cause tremendous damage.
    The message from NOAA is very clear: We want every 
business, every family, every individual, and every community 
on or near the coast to have a hurricane preparedness plan in 
place.
    Thank you for your time today, and I am happy to answer any 
questions that you might have.
    [The prepared statement of Mr. Jones follows:]

      Prepared Statement of John E. Jones, Jr., Deputy Director, 
                  National Weather Service, NOAA, DOC

    Mr. Chairman, and members of the Committee, I am John Jones, Deputy 
Director of the National Weather Service at the National Oceanic and 
Atmospheric Administration (NOAA) in the Department of Commerce. Thank 
you for inviting me here today to discuss the outlook for the remainder 
of the 2006 hurricane season, the threat posed to South Carolina by 
hurricanes and the work of National Weather Service (NWS) offices in 
forecasting inland threats from these storms.
    First, I would like to thank you for your support of NOAA and our 
hurricane program. Your support enables us to make the best forecasts 
possible, helping to ensure the people of our Nation understand the 
potential effects from hurricanes, and what action they can take to 
protect their life and property. The FY 2006 Hurricane Supplemental 
Funding, approved by Congress, is being used as directed, including 
funding forecast model improvements, storm surge and inland hurricane 
forecasting improvements. Thank you again for your support.
    On August 8, NOAA revised its prediction for the 2006 Atlantic 
hurricane season. The official hurricane season started June 1 and goes 
through November 30, with the average peak of hurricane activity 
occurring with the warmest water temperatures, from now to late 
October. So far this year there have been 3 tropical storms (Alberto, 
Beryl, Chris). For the rest of the 2006 Atlantic hurricane season, NOAA 
is predicting 9-12 more tropical storms, with 7-9 becoming hurricanes, 
of which 3-4 could become major hurricanes. A major hurricane is a 
storm Category 3 or higher on the Saffir-Simpson hurricane scale, with 
winds greater than 110 miles per hour. Major hurricanes cause about 80 
percent of the damage sustained from tropical cyclones.
    Our forecast for the remainder of this season is based primarily on 
the continuing multi-decadal signal in the global tropics--a climate 
pattern in place since 1995. Since the mid-1990s, nine of the last 11 
hurricane seasons have been above normal, with only two below normal 
seasons during the El Nino years of 1997 and 2002. This multi-decadal 
signal will likely keep us in an active period for major hurricanes for 
another 10 to 20 years or more.
    Warmer ocean water temperatures in the tropical Atlantic Ocean and 
Caribbean, combined with expected weaker easterly trade winds, and a 
more favorable wind pattern in the mid-levels of the atmosphere, are 
factors that collectively will favor storms in greater numbers and 
greater intensity. Warm water is the energy source for storms while 
favorable wind patterns limit the wind shear that can tear apart a 
storm's building cloud structure.
    NOAA is actively engaged in research to understand how climate 
variability and change may affect hurricane frequency and intensity. 
For example, climate effects from outside the Atlantic basin, such as 
El Nino/Southern Oscillation (ENSO), can impact hurricane formation in 
the Atlantic basin. This year, however, NOAA scientists predict neutral 
ENSO conditions, which means neither El Nino conditions (which tend to 
suppress hurricane formation), nor La Nina conditions (which tend to 
favor hurricane formation), will be a factor in this year's hurricane 
season.
    Last year was a record-setting hurricane season, with 28 storms and 
15 hurricanes, of which seven were major hurricanes. We know all too 
vividly the destruction and devastation a single hurricane can cause. 
That is why it is important not to focus only on the total number of 
storms. The message is clear. We all need to be prepared.

Multi-decadal Climate Patterns
    We observed that steering patterns for major hurricane landfalls 
can sometimes persist over several years. As shown in the three 
graphics below, during the 1940s, many major hurricanes hit Florida. 
During the 1950s, the focus of land-falling hurricanes shifted to the 
U.S. East Coast. During the 1960s, the central and western Gulf Coast 
was hit by the hurricanes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This pattern might lead one to assume that--given the recent major 
hurricanes like Charley, Ivan, Jeanne, Dennis, Katrina, Rita and Wilma 
in 2004 and 2005--Florida and the Gulf Coast are likely targets again 
this season. However, in each of these decades there were exceptions. 
For example, in the 1940s, while most storms hit Florida, two made 
landfall in the Gulf, and one made landfall in New England. In 
addition, in the 1930s, major land-falling hurricanes were relatively 
well distributed along the U.S. coastline--hitting the U.S. coast from 
Texas to New England. Consequently, while it is possible to observe 
these trends and make generalizations based upon these observations, it 
is important to understand that in any given year a hurricane can 
impact any part of the U.S. coastline from Texas to Maine. Coastal 
communities along the Gulf and East Coasts, including here in South 
Carolina, remain at risk for hurricanes, and the business community and 
the public must be prepared to respond if a storm approaches. South 
Carolina is no stranger to hurricanes or tropical storms. In 2004 
alone, two Category 1 hurricanes hit the state--Charlie on August 14 
and Gaston on August 29--and two other tropical systems crossed the 
state.
    It takes only one hurricane to hit a community to make for a bad 
year. Just recall Hugo which hit South Carolina in 1989, its center 
making landfall just north of Charleston. The storm surge was large; up 
to 20 feet just north of Charleston (see graphic 4, below). The impacts 
of Hurricane Hugo reached well inland, with many portions of South 
Carolina and North Carolina devastated by heavy rain and strong winds, 
knocking down trees and disrupting power supplies for over a month in 
some areas. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Let's now examine the potential effects from storms making landfall 
near Beaufort, South Carolina. The first graphic below (graphic 5) 
depicts the storm surge from a Category 1 storm moving to the north-
northwest at 35 miles per hour. The track is similar to the one Hugo 
took and almost perpendicular to the coast, except it is shifted about 
50 miles farther south. The storm surge reaches about eight feet along 
the coast. This is the amount of surge from the storm only. The 
astronomical tide would be added (or subtracted) from this value to 
obtain the water level. In the Beaufort area, the surge is about five 
feet and the astronomical tide could increase (or decrease) the water 
level by five feet.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Notice how much farther inland the flooding penetrates with 
successively stronger hurricanes traveling along the same, hypothetical 
path (see graphics 6, 7, 8, and 9, below). A land-falling Category 5 
hurricane could cause a surge of water near 20 feet high, reaching well 
inland and devastating everything in its path. Add to this the 
astronomical tides, and water could be 25 feet deep in downtown 
Beaufort with a Category 5 storm. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    No one can say with any reliability, months in advance, when or 
where hurricanes are going to strike. The state of the science is 
simply not advanced enough at this time. The bottom line is that all 
coastal states from Texas to Maine, Hawaii, and other U.S. interests in 
the Pacific and the Caribbean are vulnerable to the devastation brought 
by a hurricane. The message from NOAA is very consistent. We want every 
business, every family, every individual, and every community on or 
near the coast to have a hurricane preparedness plan and have it in 
place.

The Role of the National Weather Service in Tracking, Forecasting and 
        Communicating the Threats of Hurricanes
    The mission of the NWS is to issue weather, water, and climate 
forecasts and warnings for the protection of life and property and the 
enhancement of the national economy. Nowhere is that more evident than 
in the hurricane program. Various components of the NWS play important 
roles in the overall hurricane forecasting and warning process. The 
National Hurricane Center (NHC), within the NWS, has been the 
centerpiece of our Nation's hurricane forecast and warning program for 
50 years. The mission of the NHC is to save lives, mitigate property 
loss, and improve economic efficiency by issuing the best watches, 
warnings, and forecasts of hazardous tropical weather and by increasing 
public understanding of these hazards.
    NHC tropical cyclone forecasts are issued at least every six hours, 
more frequently during landfall threats, and include text messages as 
well as a suite of graphical products depicting our forecasts and the 
accompanying probabilities and ``cone of uncertainty,'' as it has 
become known. The NHC is responsible for predicting the path and 
intensity of the system, issuing coastal hurricane watches and 
warnings, and describing broad effects to the areas impacted, including 
projected storm surge levels.
    Local National Weather Service Weather Forecast Offices (WFO) also 
play a critical role in this process. WFOs use their local expertise to 
refine NHC advisories and provide specific, detailed information about 
the impacts from the hurricane to their local forecast area of 
responsibility. Weather forecast office staff have detailed knowledge 
of the local terrain and effects, and provide this information through 
direct interactions with local emergency managers via their local 
forecast products and messages. This detailed information is used by 
local emergency managers when making their evacuation and other 
preparedness decisions.

Inland Effects of Hurricanes
    The effects of hurricanes can reach far inland and it is the 
responsibility of the local WFO to issue inland hurricane and tropical 
storm warnings and describe the local impacts from the storms. Local 
WFOs work with NWS River Forecast Centers to forecast and warn for 
floods and flash floods. WFOs also provide forecasts and warnings for 
all other inland effects including strong wind and tornadoes. The 
offices work closely with local emergency managers to ensure they are 
aware of the potential affects from the storms.
    Local media relay NWS watch and warning information to the public; 
providing a critical way to disseminate potential life saving 
information from the NWS.

Wind
    Hurricane-force winds, 74 miles per hour or more, can destroy 
buildings and mobile homes. Debris, such as signs, roofing material, 
siding, and small items left outside, become flying missiles in 
hurricanes. Winds can stay above hurricane strength well inland. 
Hurricane Hugo in 1989 battered Charlotte, North Carolina--about 175 
miles inland--with gusts near 100 miles per hour, downing trees and 
power lines.

Tornadoes
    Hurricanes and tropical storms also produce tornadoes. These 
tornadoes most often occur in thunderstorms embedded in rain bands, 
well away from the center of the hurricane. Usually, tornadoes produced 
by tropical cyclones are relatively weak and short-lived, but still 
pose a threat.

Inland/Freshwater Floods
    All tropical cyclones can produce widespread torrential rain. This 
rain can produce deadly and destructive floods. Heavy rain can trigger 
landslides and mudslides, especially in mountainous regions. Flooding 
is the major threat from tropical cyclones to people well inland. For 
example, Tropical Storm Allison, in 2001, was the most costly tropical 
storm in U.S. history, causing more than $5 billion in flood damage and 
causing 24 fatalities in southeast Texas and southern Louisiana. 
Allison then moved northeastward and weakened to a depression as it 
brought heavy rain to South Carolina. Hurricane Floyd, in 1999, brought 
extremely heavy rainfall to many locations in the eastern United 
States.
    Flash flooding, a rapid rise in water levels, can occur quickly due 
to intense rainfall. Longer term flooding on rivers and streams can 
persist for several days after the storm. Intense rainfall is not 
directly related to the winds of tropical cyclones, but rather to how 
fast the storms are moving, and the geography of the area affected. 
Slower moving storms produce more rainfall. Mountainous terrain 
enhances rainfall from tropical cyclones and can lead to mudslides and 
debris flows. Inland flooding can be a major threat to people hundreds 
of miles from the coast.
    Between 1970 and 2004, more people lost their lives from freshwater 
flooding associated with tropical storms and hurricanes than any other 
weather hazard from those storms. However, Hurricane Katrina provides a 
vivid reminder that potentially the most devastating component of 
tropical systems is still storm surge.

NOAA Efforts to Improve Hurricane Predictions
    NOAA is focused on improving hurricane track, intensity, storm 
surge, and rainfall predictions. Research conducted by the Hurricane 
Research Division (HRD) improves our understanding of these elements, 
as well as helping to ensure that hurricane prediction models properly 
represent physical processes within hurricanes. HRD is part of the 
Atlantic Oceanographic and Meteorological Laboratory within NOAA's 
Office of Oceanic and Atmospheric Research (OAR). The accuracy of 
NOAA's hurricane forecasts is closely tied to improvements in computer-
based numerical weather prediction models. This year NOAA implemented 
advances in its hurricane forecasting model that are expected to yield 
improved track and intensity guidance for our forecasters. The 
Geophysical Fluid Dynamics Laboratory, also within OAR, developed this 
hurricane model, which has been transferred to operational use at NWS's 
National Center for Environmental Prediction (NCEP).
    NOAA's Central Computer System upgrade in FY 2007, will increase 
computational speed, memory, and storage capabilities. This allows more 
sophisticated numerical models to run and make use of available data, 
including data from NOAA's polar orbiting and geostationary satellites.
    Predicting hurricane intensity remains one of our most difficult 
forecast challenges. We are all aware of the improvements made in 
predicting hurricane track forecasts, and this has been where NOAA and 
the research community have placed their emphasis. Within the past few 
years, the emphasis on improving intensity prediction has increased. 
Leading the way, in FY 2007 NOAA plans to introduce a new hurricane 
modeling system developed by NCEP's Environmental Modeling Center 
called the Hurricane Weather Research and Forecasting model (HWRF). We 
expect improvements in intensity, precipitation, and wind distribution 
forecasting from the next generation operational modeling system. 
Congress supported our model improvement effort in the FY 2006 
Hurricane Supplemental Funding, and HWRF implementation and development 
are included in the FY 2007 President's Budget request.
    Hurricane Katrina is a grim reminder that the greatest potential 
for economic destruction and large loss of life is from the storm surge 
near the coast. Storm surge is also very difficult to predict because 
it depends on the hurricane track and wind field, but it also is 
affected by bathymetry, topography, and natural and man-made barriers, 
such as dunes and roadways. A slight difference in track or wind field 
can mean a huge difference in where the highest storm surge impacts the 
coast.
    NOAA's Storm Surge Model, known as SLOSH (Sea, Lake and Overland 
Surge from Hurricanes), provided excellent guidance during last year's 
hurricanes. We realize many other storm surge models exist, and NOAA 
recently formed an assessment team to re-examine our users' 
requirements for real-time storm surge information and products, to 
direct storm surge modeling within NOAA, and to plan for future 
enhancement of, or the replacement of, the SLOSH model.
    Our local NWS offices work closely with the research and academic 
community to improve our understanding of tropical systems; using that 
information to improve forecasts and warnings. Recent efforts include 
improved detection of tornadoes associated with tropical systems and 
forecasting the location of heaviest rainfall from tropical systems. 
Efforts also continue to improve communicating the severity of the 
impacts and communicating the level of certainty in our predictions.

Aircraft Reconnaissance Data
    NOAA aircraft, the W-P3 Orions and the Gulf Stream IV, provide 
essential observations critical to NHC forecasters, and supplement the 
U.S. Air Force Reserve Command's 53rd Weather Reconnaissance Squadron 
(``Hurricane Hunter'') flights. A specialized instrument flown on both 
of the W-P3s, the Stepped Frequency Microwave Radiometer (SFMR), was 
developed by NOAA researchers at the HRD and provides essential data on 
hurricane structure, surface wind and rain rate to hurricane 
forecasters. The SFMR allows forecasters and researchers to see 
fluctuations in hurricane intensity not observed before. The Military 
Construction Appropriations and Emergency Hurricane Supplemental 
Appropriations Act, 2005 (P.L. 108-324) provided $10.5 million to the 
Air Force to outfit the complete fleet of Hurricane Hunters with this 
instrument.

NOAA Encourages Everyone to Prepare
    We work year-round with federal, state, and local emergency 
managers; we educate them about weather effects from hurricanes, and 
they educate us about response issues and their challenges. It is a 
constant learning process and the key is working together to ensure the 
public takes appropriate action. Most preparedness activities and 
outreach takes place outside hurricane season. Last spring, as part of 
our ongoing mission to enhance economic security and national safety, 
NOAA conducted a Hurricane Awareness Tour along the Gulf Coast. The 
tour helped raise awareness about the potential effects from a 
hurricane landfall. The NWS forecast offices arranged the tour events 
with the Federal Emergency Management Agency, local governments, 
emergency managers, schools, the public, and the media in a team effort 
to increase hurricane awareness and encourage preparedness in this 
vulnerable area of the Nation. On May 5, 2005, the Hurricane Awareness 
Tour stopped in Charleston, where 1,000 school-aged children, and many 
others, toured the plane and were informed about hurricane 
preparedness.
    One way a community could prepare is to become StormReady. 
StormReady is a nationwide community preparedness program to help 
communities develop plans to handle all types of hazardous weather 
events, from hurricanes to tornadoes. South Carolina has 42 StormReady 
designations, 36 counties and 6 communities.
    During land-falling storms, it is essential for the emergency 
management community and the weather community to have one message for 
the public so businesses and people can take appropriate action. 
Nowhere is this more critical than in areas most vulnerable to the 
impact of a hurricane. Our local NWS offices in South Carolina work 
very closely with local emergency managers to ensure we all speak with 
one voice. During the past year, NWS offices in Greensboro, Columbia, 
and Charleston, South Carolina, as well as the NWS Office in 
Wilmington, North Carolina, gave numerous presentations, online 
``hurricane chats,'' and training classes to people in South Carolina, 
to discuss weather and the potential impact from hurricanes and 
tropical systems. These outreach efforts raise awareness and hopefully 
allow people to prepare for the storms long before they happen.

Conclusion
    The truth is, right now, no one knows exactly what areas of the 
coast, or which states or locations within those states, if any, 
another hurricane will hit in 2006. Could it be the Gulf Coast again? 
Maybe. How about New England or New York City? What about South 
Carolina? They're all possible, but, right now we just don't know. We 
also need to remember a hurricane is not just a coastal event. The 
strong winds, heavy rains, and tornadoes from weakening tropical 
systems can spread well inland and cause tremendous damage.
    The chart below shows the tracks of tropical storms and hurricanes 
since 1851. I think most people can look at this graphic and understand 
that the United States is vulnerable to hurricanes. The bottom line is 
that all coastal states from Texas to Maine, Hawaii, and other U.S. 
interests in the Pacific and the Caribbean are at risk. Everyone along 
the coast, as well as communities susceptible to the inland effects 
from tropical systems must be prepared to protect their lives and 
property in the event of a hurricane. Thank you, and I am happy to 
answer any questions that you might have. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator DeMint. Thank you, Mr. Jones.
    I particularly want to thank you and all the crew of the 
Gulf Stream Hurricane Hunter we saw this morning.
    I think it looks luxurious from the outside; but inside, 
obviously, it is a working airplane. It's encouraging to see 
the progress we have made with, particularly, predicting the 
tracks.
    You showed us what would happen if Beaufort was hit with 
the category one and five.
    I don't know if you have available to just look quickly at 
two, three, and four, just to give the folks an idea.
    Mr. Jones. I think we have a couple of pictures of 
different categories of storms.
    Voice. We have, two, three, four.
    Senator DeMint. If you can just go through that.
    Because the likelihood of a two or three seems--I think Mr. 
Fowler said it's not a matter of if, it's just a matter of 
when.
    Mr. Jones. Yes.
    Senator DeMint. Let me ask a couple of questions while we 
are waiting.
    Colonel, and I think I want to ask Mr. Winn the same thing, 
how much notice do you need to effectively evacuate and carry 
out your plan?
    Colonel Lanham. Sir, is this with or without the four-lane 
highway?
    Senator DeMint. That is like a ten-year notice. We don't 
have that. But just give it at the current situation; how much 
advanced notice do you need to effectively evacuate the base?
    Colonel Lanham. It's hard to say exactly, sir, you know, 48 
hours is a reasonable timeline for most people.
    But it's probably too short for us, in the way we would 
have to do it, given the access to these areas.
    So, we really do emphasize self-evacuation early for the 
majority of the military families here; have a plan, have 
somebody you know or somewhere you can go, and get out of here 
early.
    Because if we have to wait two to three days, even that is 
going to maximize the infrastructure that we have in place to 
get folks evacuated safely in a timely manner.
    Senator DeMint. You don't have an arrangement within the 
schools, auditoriums or whatever--you folks just don't have 
anyplace to go--if they could go to some emergency shelter for 
a few days.
    Colonel Lanham. Well, we do. But the problem is, that if we 
are talking anything above a category one that doesn't hang 
around in the area very long, wherever we have the shelters in 
Beaufort County are not going to provide shelter adequate to 
the need.
    Senator DeMint.  Right. But inland, you don't have an 
agreement with anyone 100 miles in or something?
    Colonel Lanham. For none other than our essential personnel 
that are going to plan and participate in the recovery efforts, 
we don't, sir.
    Senator DeMint. Mr. Winn, how much notice do you need to 
get people off Hilton Head Island and out of Bluffton and off 
of Lady Island and----
    Mr. Winn. If ten years was an offer, sir, I'll take it.
    Our hurricane evacuation studies, and the current update we 
just did, show category five evacuation time is approximately 
25 hours, from the time we say ``go'' to get everybody out.
    Category three, we run anywhere from 16 to 18 hours.
    But in the South Carolina hurricane plan, if our increased 
rates are implemented by the state, we start about four days 
out from when we perceive the threat.
    A lot of that is given to us by the Hurricane Center or the 
Charleston Weather Service Office, and the time sequence that 
we use it, usually takes us about four days to do all the 
increased readiness steps we need. So we have to jump through a 
lot of hoops, whether we know the threat or not, but the actual 
evacuation for the public, range anywhere from 18 to 25 hours.
    Senator DeMint. Two days out, if we told everyone to 
evacuate, I imagine we would have a pretty serious traffic jam 
on 278 and other arteries getting out of here.
    Mr. Winn. We also say we can guarantee we can get you to 
the county line. I'm not sure I can get you much past that. The 
evacuation problems we have seen inland into Jasper and Hampton 
County, because we only have two routes that are assigned to 
the Lowcountry of South Carolina. So, we have to move the 
entire evacuation over those two routes. And they are just not 
adequate enough to do that, that is what strings the time out. 
The actual problem is further inland.
    Senator DeMint. Let's take just a second to look at 
category two, three and four. Because knowing what to expect 
is, I think, a very important part
    Voice. These are still images.
    Senator DeMint. Whatever is easiest. I think the aftermath, 
how much water do we have, given category two.
    Mr. Jones you may want to walk us through this.
    Mr. Jones. John, let's go to the movies, since they saw the 
movies for one and five, if you don't mind. I think that would 
be easier.
    So here is the category two. Again, the hurricanes are all 
going north-northwest at 35 miles an hour.
    And the bar in the upper right-hand corner shows the depth 
of the water.
    Johnny, please go to the Category 3 storm.
    Now we start getting into some of the yellows. Yellow is 16 
feet, when we get to a Category 3.
    This next loop is for Category 4. You can see the yellow 
goes much farther inland.
    Senator DeMint. That yellow is 10, 12 feet?
    Mr. Jones. 16 feet.
    That is a lot of water. If it comes at high tide, you add 
another five feet, and that makes it about 20 feet of water 
from the storm surge with a category four. Category five was up 
to 25 feet.
    Senator DeMint. Mr. Winn, even with the new codes of 
building-up higher, that just takes you up to eight or ten 
feet, doesn't it?
    Mr. Winn. Well, what I use in my presentation, Senator, is 
when you get to a category five, the Town of Yamassee is an 
island. And I own a farm that is just on the other side of Mt. 
Beaufort, I will have oceanfront property for about 20 minutes.
    Senator DeMint. That was another question: We are not going 
to have sitting water for very long. Water is just going to 
come up, pass by, and pretty much be gone--relatively quickly, 
right?
    Mr. Winn. In most cases, yes, Beaufort County has done a 
tremendous job in advancing our draining problem in the county.
    A lot of downed trees, that is going to clog--a lot of 
water will come out in low tide, that is one of the advantages 
we have.
    Senator DeMint. Would this contaminate the drinking water, 
to have that much water run across the whole Beaufort County 
area?
    Mr. Winn. Much of our drinking water comes out of the 
Savannah River. It depends on the amount of damage to the 
canals, the impact of the water. There will be some 
contamination of some of the shallow wells.
    Senator DeMint. A lot of the saltwater will push up the 
river a ways under that condition, right?
    Is it possible we will have salty drinking water for 
awhile?
    Mr. Winn. It could affect some of our wells in the back 
part of the county.
    We looked at the model real close, we have just as much 
flooding, in some case more flooding on the backside of 
Beaufort than we do on the front side.
    And if you look at the great storm of 1893, Beaufort County 
being the--having the second largest number of deaths in the 
United States history from a hurricane in 1893, most of the 
deaths were in the backside of the county; that is true today.
    Senator DeMint. A lot of that water might sit?
    Mr. Winn. Some of that water will sit in places, yes.
    Senator DeMint. Let's talk about communications. Colonel, 
we talked a little bit about your ability to communicate with 
Mr. Winn, and our ability to communicate with the people who 
live here.
    And I think, Mr. Winn, you mentioned the auto-dialing 
system. How long will it take you to get to everyone in the 
county through this auto-dialing system?
    Mr. Winn. Depending on which version we use, and the 
efforts we take, it could be as much as six hours--six to seven 
hours, depending upon which system we activate.
    What we try to do, Senator, is to phase it in as much as we 
can and only hit certain areas first.
    We have found in our past history of evacuation, if we 
surge it too much at one time, it puts more traffic on the 
highway than we can handle.
    So, we try to phase it in, in our evacuation, through the 
coastline, and moving back in some of our announcements.
    We have even stopped sending out some of our truck warning 
sirens. We are putting too much of a surge on the highways.
    Senator DeMint. Would it be helpful if you could send 
warnings to cell phones, Blackberries, and mobile devices?
    Mr. Winn. Yes, sir. The system which we propose would be of 
a great advantage to our local emergency management folks, 
giving us the ability to set it off with a message that we 
need, and be able to target specific areas.
    Even the emergency alert number systems where we can dial 
the residents, it only hits land-lines and goes through the 
Internet, we can do that.
    But the actual cell phone technology of contacting them, 
that has not been achieved yet, sir.
    Senator DeMint. My hope is that we can design this system 
in a way even if someone was on Hilton Head from New York, with 
their cell phone, that our warning system could actually 
communicate with anybody who's on the system here; that has got 
to be part of the problem. People are here and might not even 
answer the phone if they are renting a place, getting visitors 
off or out of the county has got to be a pretty big challenge.
    Do we have a plan for, perhaps lower-income people who live 
in the area--might not have telephones and might not have 
transportation to move out. Couldn't that be a big problem?
    Mr. Winn. As of today, sir, we have the capability and 
maintain what we call a ``lift capacity'' of moving 3,700 
people in one trip to our hurricane shelters in Hampton.
    We are in the process now of upgrading that capacity, by 
adding 20 more buses as reserve.
    And I would just request 10 extra buses with 20 drivers 
from the state, which would give us a ``lift capacity'' of 
around 4,000, 4,500.
    If we have enough time to run two trips, that gets my 
capacity to about 9,000, sir.
    I think that would adequately move the people out of 
Beaufort County.
    As for the notification, I will tell you that the people 
who want to leave, Senator, can leave. And I'm absolutely 
confident that anyone who wants to leave, no matter what their 
economic situation, whether they have their own transportation, 
we can get them out of Beaufort County.
    The problem is, the people who perceive there is no threat 
or little threat, and are going to stay in the county, we 
estimate that could be anywhere from 5,000 to 8,000 people, and 
that's going to be a significant search and rescue operation 
after the storm.
    Senator DeMint. So it's not a matter of them not knowing, 
or us not warning them and giving them means to leave, it's 
just that it may be their own decision not to leave.
    Mr. Winn. They make their own decision. And then that opens 
up the whole Pandora's box, how do we deal with that in that 
process.
    Senator DeMint. Are we doing things through local schools 
to help students understand dangers and the preparation, and 
that process; is that something we are doing?
    Mr. Winn. As for a direct program, we have--no, sir; we 
have no program that goes directly into the schools.
    We have used educational programs outside of the schools to 
the public. We offer programs like Mr. Fowler going into the 
schools and talking when he's invited. But as for a full 
education program; no, sir, there is not one.
    Senator DeMint. What we are looking for are ideas of things 
that we can do at the Federal level, just like the warning 
system, something we can do to support what you're doing 
locally. And as you think about the role of the Federal 
Government, whether it's supporting a warning system like that, 
whether what we do with NOAA, what FEMA might do, I would like 
to maybe ask all four of you panelists: What do we need to be 
doing on our committee and in the Congress, and at the agency 
level--the Federal Government, to get prepared and to assist 
the local communities, on the whole, warning, predicting, 
evacuating, recovery process?
    Where are we, Colonel? I'll start with you. What comes to 
mind?
    Colonel Lanham. It's hard for me to really address the 
Federal role in this because, really, our focus here has been 
on local coordination of issues.
    And the first thing that jumps into my mind, sir, is the 
support at the Federal level of information sharing. Both the 
lessons learned and, if we move our focus from storms, for just 
a minute, to broaden that to any kind of mass-casualty 
scenario, the planning and predicting of those, as well, 
terrorist tracking, things like that, but sharing information 
at the national level is still an area that we--I think we need 
to continue some improvement on.
    The more that we can do that, the more that we can 
encourage the quick-share flow of information. Lessons learned, 
planning ideas, alternatives and resources available, I think 
the better off it will be for the local planners to tap into 
what they need and tailor what is available at the Federal 
level to their specific circumstances and localities across the 
country.
    Senator DeMint. We talked this morning about communication. 
You're communicating with Mr. Winn. Are our systems 
interoperable? Are these going to work together, just between 
the base and what we have here on the civilian side?
    Colonel Lanham. Only because the county provides us a lot 
of that support. The 800 megahertz radios that we use are 
provided and maintained by contract vehicles that the county 
owns. And that works very well for us here.
    Interoperability is something we continue to work on here, 
but it's not a given. And it has potential, when everybody has 
a good idea, to go in one direction.
    Unless everybody goes with them, we are not going to stay 
interoperable over time.
    Senator DeMint. Mr. Fowler, I know when we have a hurricane 
coming in, do you get enough information updated enough?
    I know the weather service is probably in constant 
communication. But as far as evacuation routes, problems with 
traffic choke points somewhere; do you get enough?
    Mr. Fowler. We do. I think Floyd, obviously, for many folks 
including media was a major lesson for us to learn, as well.
    Obviously, some changes have been made in South Carolina 
from the Governor's office down to the local level, about how 
to get people out. And when they are going to get them out, 
what roads will be reversed. So our role is to just get that 
information out to the public.
    I like the idea of the text-ahead, we as a TV station do 
that personally, contracting with a service. And after the 
first tropical storm, Alberto, of this year, we had about 400 
people sign up that first day.
    So, we constantly send out text alerts. And it has been 
very advantageous for us, and people have kind of responded to 
that as well.
    If you go do that on the government level, that would be 
excellent. Not just hurricanes, but Amber alerts, other things 
as well. We try to get the information out as quickly as we 
can.
    We are lucky that we have a great weather service office, a 
forecast office in Charleston, that they have--they will 
contact us in advance of a potential threat and say: Here is 
what our inside thinking is.
    You know, we, as the media, it's our responsibility to kind 
of syphon that information down to the public, so we don't want 
to show everything that we have got. Because, you know, people 
really are hanging on your every word. And they can see it in 
your eyes if you're scared or not.
    So you have to try to keep a low profile and calm, you 
know, persona on the air.
    But they usually call us beforehand: Here is what we are 
thinking, or watch is going to go up the next update, or 
warning the next update.
    And then that helps us ramp up our presentation, exactly 
what we need to hit on, what is most important and what message 
we need to send out to our viewers.
    Senator DeMint. Do you get information from the highway 
department reminding people of evacuation routes?
    Mr. Fowler. We do. They have done a great job. Again, I 
think Floyd was really the catalyst for this. I have been in 
Charleston since 1987, and went through the Floyd debacle 
sitting in a TV station, not realizing what was going on on the 
highways.
    Now, with the traffic cameras that are instituted by the 
Department of Transportation, the Highway Patrol, obviously, 
there is a good link there to the media. We have good liaisons 
in that respect. So we get the information that we need to get 
out to the public.
    Senator DeMint. Do you know if the local--until we get the 
WARN Act implemented, the folks in their cars leaving, their 
only information that is probably on radio; do you know if the 
local radio stations have the same information you do available 
from, looking at cameras and things like that?
    Mr. Fowler. I'll tell you, we learned a hard lesson during 
Hurricane Hugo. The almighty television station is not almighty 
when you have a hurricane coming through. So we were still 
broadcasting a signal, but nobody was picking it up.
    So, what has happened in the radio business, and I'm sure 
you are familiar with this, is the fact that you have big 
groups of bought clusters of radio stations in different 
markets.
    We have Clear Channel Radio. They own six powerful radio 
stations. So we have formulated an agreement with that group 
that if, and when a threat occurs, that we will broadcast over 
their airwaves as well.
    So, basically, what they may do is, they may simulcast our 
signal, as we are what we call wall-to-wall coverage; or we, as 
a meteorologist will update them for people in the car.
    And we had an instance this spring of many tornadoes in our 
area, and there was one person who called me after hearing 
tornado warning on the radio station that we were broadcasting 
on, telling me they saw the tornado on the Donnough Bridge over 
by Westvaco.
    That person, just by listening to the radio, was able to 
understand the threat was there, and they are driving over the 
bridge, not knowing on the other side of that bridge was a 
tornado--possible tornado had touched down in that area.
    So, radio stations are a site link to what we do.
    Senator DeMint. Are the emergency management folks in 
Charleston involved with your working with radio stations and 
communicating? Is that something that goes on here, Mr. Winn?
    Mr. Fowler. Yes. I think, absolutely. We go--we frequent so 
many seminars and conferences together, we get to really 
interact with each other.
    And then when it does hit the fan then, you know, we have 
that good working relationship.
    With that, they know to call us, and we rely on them, and 
they rely on us to get the word out.
    We have had good relationships over the years with the 
folks in charge in Charleston, specifically, and some of the 
other counties that we serve.
    Senator DeMint. That is encouraging, Mr. Winn.
    What do we need to do that we are not doing?
    I know you mentioned the roads. I have taken note of that. 
We are working on road money.
    Mr. Winn. First, like the comments say, some of the things 
meteorologist's office in Charleston, the Weather Service, they 
just held a meeting within the last three months of the Local 
Emergency Management Directors and media folks, and we sat down 
with the Weather Service Office in Charleston, and we talked 
through a lot of items: What's working? What's not working? 
What do we need to do differently?
    And I think that type of leadership, specifically, with the 
Weather Service Office out of Charleston is a step in the right 
direction.
    The highway infrastructure is important. I tell you, one of 
the main complaints I get from people is fear of being stuck on 
the highway.
    And the three-lane completion of 278, out of the county, is 
critical for us.
    So, the highway infrastructure and asking the Federal 
Highway Administration to put more consideration in their 
funding for new highways based on hurricane issues, which they 
do not.
    What has gone on in Beaufort with our three military bases, 
Senator, I found is unique. I have received more calls from 
around the country: How did you all do that? What did you do in 
Beaufort to get the military to participate with you?
    And what you are seeing here is something you will not find 
in a lot of places. I give a tremendous amount of credit to 
Headquarters Marines for trying something new in Beaufort. I 
think we have proved, Colonel, that it works. I can't give 
enough credit to LT COL Nick Fabrise from Parris Island, who 
sat down with us three years ago and said: This is something 
you need to do; and helped us find ways to do it.
    But it's something that needs to be expanded around the 
country, linking more of the counties to their military 
facility, as we have done.
    It has been an adventure on both sides, but we have shown 
you, sir, that it works. And this is something we would like to 
see expanded.
    Funding of warning systems, particularly systems that you 
mentioned, we encourage you to make sure there is input, 
because what works in South Carolina may not work exactly in 
North Carolina.
    We have been implementing phase two for wireless 911 in 
South Carolina. We are one of the first counties to do that, 
and that has been quite a chore with the cellular companies.
    And we find there is a wide difference between the 
technical abilities of those companies.
    So, I caution you, as you put that together, to make sure 
you understand those.
    Number two, I ask that you have local input, as you all put 
that system together, and bring some of the county directors in 
for that local experience.
    As for getting information, the FEMA Hurricane Liaison 
Team, the National Hurricane Center does a good job in 
providing some of those coordination calls with the states, and 
in some cases for the county, that is a tremendous step 
forward.
    Hurricane evacuation studies need to be updated, like 
Beaufort County just received. It would help us pinpoint what's 
safe and what's not.
    The other growing problem that we are seeing, Senator, is 
Red Cross shelters. And the problem is just not enough of them. 
I lose all my shelters after category one. So my nearest 
hurricane shelters are 50 miles inland.
    After this year, we are going to exceed our capacity. So, 
now we are going to have to go further in. And this is 
producing quite a challenge for us in getting our folks that 
far away in the storm, and it may deter some of our people from 
wanting to leave.
    As for your WARN program, yes, sir. I recommend it. Yes, 
sir. I think it's a step in the right direction. I think it's 
something that would benefit us, not only in hurricanes, but 
something simple that can be so terrifying as an Amber alert.
    My agency is responding quickly for that, they are 
responsible for putting that out. To be able to get an Amber 
alert out on a system like that, would be tremendous. I have 
only activated an Amber alert one time in Beaufort County.
    To give you a degree of its effectiveness, within 10 
minutes of putting out the Amber alert, we found the little 
girl, because of that system.
    So, when you develop a WARN System, I urge you to please 
consider Amber alert as part of that; it would make a 
tremendous difference in a lot of peoples' lives, sir. Thank 
you.
    Senator DeMint. Well, just so you know, as part of the WARN 
Act, that there is a section that basically requires state and 
local collaboration to put these systems together. And the 
cellular companies have to disclose the degree to which they 
have the capability to implement warnings, maps and those.
    Our hope is that the cellular companies will have to 
compete with that system. And people are likely to get the cell 
phones or Blackberry that is going to offer them the greatest 
capability as far as warning. So we will be counting on a lot 
of input from you.
    Mr. Winn. Thank you, sir.
    Senator DeMint. Mr. Jones, what do these folks need to do 
that they are not doing to use your information to prevent and 
predict?
    Mr. Jones. There are a couple of things that you have 
already mentioned. At the very beginning, you talked about why 
you felt it was important for the community to be here.
    I think you coming in here yourself has brought heightened 
awareness to the potential impacts and danger from hurricanes. 
And you coming here yourself, you brought the press.
    So, colleagues of Mr. Fowler will now have stories tonight 
that, hopefully, people here--either living here or visiting--
will even think more about: Well, do I really have a plan in 
place, what do I do if the worst comes?
    We cannot say that enough. I think that that is number one.
    You talked about one of the biggest challenges that I have 
seen in my almost 35-years; career, human behavior: the social 
science.
    If we give people the perfect forecast, we tell them it's 
going be here, and these are the consequences that are going 
occur, there are always going to be problems, because everyone 
is not going to respond the same way.
    I don't know of anyone who really has an answer for that. 
But I know we need to do more research. I don't know if it's 
the way we communicate the information or what it might be. I 
think the information is communicated clearly, but the whole 
human behavioral reaction to storms, and wanting to experience 
it, rather than getting out of the way is the basic issue. If 
they could understand the type of complexities it puts on the 
First Responders, they might make a different decision.
    First, the first responders must get to the people who are 
really in danger, those who couldn't go and get out of the way. 
Then these first responders keep putting themselves at risk to 
recuse those who didn't--who wouldn't get out of the way 
because they chose to ride it out.
    Mr. Fowler talked a couple of times about Hurricane Floyd. 
When Hurricane Floyd came up the East Coast and the Governors 
of Florida, and South Carolina, and Georgia made their 
decisions to evacuate, and we had the problems with too much 
traffic on the road, I had a serious question about whether or 
not you would ever see mass evacuations like that again.
    But people did evacuate from Katrina. People did evacuate 
from Rita. And although Rita didn't go to Houston proper--a lot 
of people in the Houston area may have thought, I really do 
need to evacuate, so they did, causing massive traffic jams.
    So, we still have people's attention, and we need to keep 
that awareness as high as possible.
    And Max Mayfield, as you have heard, Senator, says he's 
more busy in the off season then during the hurricane season. 
Always going out, trying to talk to people about needing to get 
prepared, needing to have a plan.
    So, the more that we can do and bring more attention to the 
hurricane and storm surge issue, the more people will learn 
about their own risk. I think we provide enough information for 
people to react to the information and take appropriate action.
    Mr. Winn talked about the hurricane liaison team. I know it 
has been a big boom for the emergency managers. They help us 
get the word out.
    We just need to get more information to the public. Always 
the idea of danger from hurricanes needs to be at the top of 
their minds: They need to have a plan in place and be ready to 
react when it's time to take action.
    Senator DeMint. We want to make sure that Mr. Winn, this 
gets back to your point, and highway infrastructure, that we 
don't have people who are trying to decide whether they want to 
ride out the storm or spend 30 hours in their car in traffic 
backed up.
    That doesn't need to be a consideration. Folks who want to 
get out, we need to make sure we can do it effectively.
    And we want to make sure no one doesn't evacuate, because 
they didn't know. And I think the system we have set up, unless 
someone is just hiding out somewhere, they should be able to 
find a way out. But we want to make sure we are doing 
everything we can.
    But this has been a very informative hearing. And I think, 
Mr, Jones part of it, as you said, is just to draw attention to 
the public, of the need to be prepared, and the fact that we 
are preparing.
    But the big missing link is always how people will respond 
when we warn them.
    So, I think as much as we can continue to do that through 
the media, through our emergency response system, perhaps even 
through our schools, people need to know that 20 feet of 
water--it doesn't matter what kind of facility you're in--it's 
hard to live through that.
    And I think they sure found that out in the Gulf last year.
    Is there anything that needs to be said that hasn't been 
said? Anyone like to make a comment before we adjourn the 
hearing?
    Again, Colonel, I thank you for your hospitality. The 
Marines are first class, as usual. And thank you for your 
briefing this morning.
    Mr. Jones, thank you for bringing the plane down.
    And, obviously, Mr. Winn, we know you are doing a lot of 
planning, and it all gets to the public through Mr. Fowler and 
his colleagues. So we have the beginnings of a good system. I 
hope we can do our part in Washington to make sure we give you 
the resources you need.
    So, if there is nothing else that needs to be said, this 
hearing is adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
